AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No. 20-366
X
DONALD J. TRUMP, PRESIDENT OF THE
UNITED STATES, ET AL.
Appellants,
v.
NEW YORK, ET AL.,
Appellees.
X
STATE OF NEW YORK )
COUNTY OF NEW YORK )
I, Julian Hadiz, being duly sworn according to law and being over the age of 18,
upon my oath depose and say that:
I am retained by Counsel of Record for Amici Curiae Faith-Based and
Immigrants' Rights Organizations.
That on the 16th day of November 2020, I served the within Brief of Amici Curiae
Faith-Based and Immigrants' Rights Organizations in Support of Appellees in the abovecaptioned matter upon:
Jeffrey B. Wall, Acting Solicitor General
UNITED STATES DEPARTMENT OF JUSTICE
Counsel for Appellants
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
supremectbriefsAusdoj.gov
Dale E. Ho
AMERICAN CIVIL LIBERTIES UNION
Counsel for Appellee New York Immigration Coalition, et al.
125 Broad Street
New York, NY 10004
(212) 549-2693
dale.ho@aclu.org

Barbara Dale Underwood, Solicitor General
OFFICE OF THE ATTORNEY GENERAL
Counsel for Appellee New York, et al.
28 Liberty Street
New York, N 10005-1400
(212) 416-8016
barbara.underwood@ag.ny.gov
by sending three copies of same, addressed to each individual respectively, and
enclosed in a properly addressed wrapper, through the United States Postal Service, by
Express Mail, postage prepaid. An electronic version was also served by email to each
individual.
That on the same date as above, I sent to this Court forty copies and 1 un-bound
copy of the within Brief of Amici Curiae Faith-Based and Immigrants' Rights
Organizations in Support of Appellees through the United States Postal Service by
Express Mail, postage prepaid. In addition, the document has been submitted through the
Court's electronic filing system.
All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 16th day of November 2020.

Julian Hadiz
Sworn to and subscribed before me
16th day of November 2020.

kik
MARIA MAISONET
Notary Public State of New York
No. 01MA6204360
Qualified in Queens County
Commission Expires Apr. 20, 2021

